     U.S. ELECTION ASSISTANCE COMMISSION 

          OFFICE OF INSPECTOR GENERAL





                        Management Letter: 

                   Required Supplementary 

                   Stewardship Information 





NO. I-PA-EAC-01-10(A)
NOVEMBER 2010
                       U.S. ELECTION ASSISTANCE COMMISSION
                               OFFICE OF INSPECTOR GENERAL
                              1201 New York Ave. NW - Suite 300
                                    Washington, DC 20005



                                                             November 15, 2010


To:        Donetta Davidson
           Chair, U.S. Election Assistance Commission

From:      Curtis W. Crider
           Inspector General, U.S. Election Assistance Commission

Subject:   Management Letter – Required Supplementary Stewardship
           Information

This memorandum transmits Leon Snead & Co.’s management letter which is
based on the financial statement audit report of the U.S. Election Assistance
Commission (EAC) for the Fiscal Years 2010 and 2009.

Results of Independent Audit

The Chief Financial Officer’s (CFO) Act of 1990 (P.L. 101-576), as amended,
requires EAC Inspector General or an independent external auditor, as determined
by the Inspector General, to audit EAC’s financial statements. Under a contract
monitored by the Office of Inspector General (OIG), Leon Snead & Co. P.C., an
independent public accounting firm, performed an audit of EAC’s Fiscal Years
2010 and 2009 financial statements. The contract required that the audit be
performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States, and Bulletin 07-04, Audit Requirements
of Federal Financial Statements, as amended, issued by the United States Office of
Management and Budget.

In conjunction with the financial statement audit, Leon Snead & Co. P.C. noted that
EAC did not report required supplementary stewardship information relating to the
investments EAC made for non-federal property and research in fiscal year 2009.
EAC, in response to Leon Snead & Co. P.C.’s concerns was able to gather
sufficient information to enable the agency to estimate the investments made for
non-federal property for the last four years.

Based on the information provided in the November 5, 2010 response to the draft
management letter, we consider this recommendation resolved.

The Inspector General Act of 1978, as amended, requires semiannual reporting to
Congress on all reports issued, actions taken to implement recommendation, and
recommendations that have not been implemented. Therefore, we will include the
information in the attachment in our next semiannual report to Congress. The
distribution of this report is not restricted and copies are available for public
inspection.

We appreciate the cooperation and assistance of EAC personnel during the audit. If
you or your staff has any questions, please contact me at (202) 566-3125.

Attachment



Copy to:       Gineen Bresso, Commissioner
               Gracia Hillman, Commissioner
               Thomas Wilkey, Executive Director
LEON SNEAD                                                         Certified Public Accountants
&COMPANY,P.C. ----____________________________________________________
                                                                  & Management ______       _
                                                                                    Consultants         ~




416 Hungerford Drive, Suite 400
Rockville, Maryland 20850
301-738-8190
fax: 301-738-8210
leonsnead.companypc@erols.com




                The Commission and Inspector General
                U.S. Election Assistance Commission

                We have audited the financial statements of the U.S. Election Assistance Commission
                (EAC) as of and for the years ended September 30,2010 and 2010, and have issued our
                report thereon dated November 9, 2010. In planning and performing our audit, we
                considered internal controls over financial reporting in order to determine our auditing
                procedures for the purpose of expressing an opinion on the financial statements.

                In performance of our audit, we noted the following matter that is presented for your
                consideration. We have discussed this issue with EAC officials.

                 Required Supplementary Stewardship Information

                 EAC did not report required supplementary stewardship information relating to the
                 investments EAC made for non-federal property and research in fiscal year 2009. We
                 determined during our current audit that EAC did not have and/or had not yet compiled
                 data to enable the agency to report this investment information for 2010.

                 OMB Circular A-136, Financial Reporting Requirements, defines non-federal physical
                 property investments as expenses incurred by the reporting entity for the purchase,
                 construction or major renovation of physical property owned by state and local
                 governments. The circular defines research investments as research and development
                 investments as expenses incurred to support the search for new or refined knowledge and
                 ideas and for the application or use of such knowledge and ideas for the development of
                 new or improved products and processes, with the expectation of maintaining or
                 increasing national economic productive capacity or yielding other future benefits. The
                 circular requires reporting these investments for five years.

                 EAC has provided billions of dollars in grant funding that were used for the purchase of
                 nonfederal property, and has received funding for "Research on Voting Technology
                 Improvements" in 2009 and 2010, totaling $10 million.

                 In response to our concerns about the ability of the agency to meet these reporting
                 requirements for 2010, EAC officials were able to gather sufficient information to enable
                 the agency to estimate the investments made for non-federal property for the last three
                 years. In addition, in a memorandum, dated November 5, 2010 (copy attached) EAC
officials advised that the agency will continue to explore ways to collect this infonnation
from states and grantees in order to report a full five year presentation in future years.

Since EAC officials took action to address this matter, we are not making any additional
recommendations.

This report is intended solely for the infonnation and use of the management and the
Office of Inspector General of EAC, OMB, and the Congress, and is not intended to be
and should not be used by anyone other than these specified parties.


~~~~bfYIA4 u1I :;t:JC
Leon Snead & Company, P.C.
November 9,2010




Leon Snead & Company, P. C.                 2
                      U.S. ELECTION ASSISTANCE COMMISSION
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005




                                                            November 5, 2010

Memorandum

To:      Arnie Garza,
         Assistant Inspector General for Audits

From: Donetta Davidson           1
                             ~r£ I~JA
                                t.    /
                                           "';,
                                             1 e"''''/

      Chair, U.S. Election Assistance Commission

Subject: Fiscal Year 2010 Management Comments

The Election Assistance Commission (EAC) is in agreement with the one
matter noted in the above referenced report.

      1. 	 Required Supplementary Stewardship Information - Non-federal
        property and research

        Management was able to provide, based on reasonable estimates, non­
        federal property and research information for Fiscal Years 2007, 2008
        and 2009 in the FY 2010 financial statements. Management will
        continue to explore additional ways to collect this information from the
        states and grantees in order to present a full five year presentation in
        future years.
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1201 New York Ave. NW - Suite 300
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
